                   AUDIT OF THE 

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 

    TECHNOLOGY PROGRAM GRANT AWARDED TO 

     THE CITY OF CHICAGO POLICE DEPARTMENT 

                CHICAGO, ILLINOIS 




           u.s.  Department of Justice
          Office of the Inspector General
                   Audit Division


                  GR-50-13-012 

                  August 2013 

                    AUDIT OF THE 

  OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 

      TECHNOLOGY PROGRAM GRANT AWARDED TO 

       THE CITY OF CHICAGO POLICE DEPARTMENT 

                  CHICAGO, ILLINOIS 


                             EXECUTIVE SUMMARY 

      The Office of the Inspector General, Audit Division has completed an
audit of the Office of Community Oriented Policing Services (COPS)
Technology Program grant number 2007-CK-WX-0034 in the amount of
$5,913,720 awarded to the city of Chicago, Illinois, Police Department
(Chicago PD). The COPS Technology Grant Program is designed to assist
state, local, and tribal law enforcement agencies to procure technology that
enhances the ability to share information with regional, state, and federal
partners. Grants are intended to help facilitate the sharing of information
across multiple jurisdictions, with the ultimate objective of increasing public
safety.

          COPS OFFICE GRANT AWARDED TO THE CHICAGO PD
            GRANT                 AWARD               AWARD
                                                                     AWARD AMOUNT
            AWARD              START DATE            END DATE

     2007-CK-WX-0034           09/01/2007         02/ 28/ 2013'           $5913 720
                                                            Total:       $5,913,720
       Source: COPS Office

      Specifically, the primary purpose of grant number 2007-CK-WX-0034
was to provide funding to enhance the Chicago PD's Citizen and Law
Enforcement Analysis and Reporting (CLEAR) System.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) matching
costs, (6) property management, (7) program income, (8) financial status
and progress reports, (9) grant requirements, (10) program performance

        1 The award end date includes severa l no-cost extens ions granted by the COPS

Office. The original grant end date was August 31, 2010.
and accomplishments, and (11) monitoring of contractors and subgrantees.
We determined that payroll, tangible accountable property, indirect costs,
program income, and monitoring of subgrantees were not applicable to this
grant.

       As of June 30, 2012, the grantee had drawn down $5,874,793 in
grant funds and had recorded federal grant expenditures of $5,512,964 in
its grant accounting records. The majority of grant funds were paid to one
COPS-approved, sole-source vendor used to develop or improve CLEAR
program software. This vendor was utilized in the creation of the original
CLEAR program in Chicago. Based upon our examination of the
Chicago PD’s grant accounting records, required reports, and operating
policies and procedures as of June 2012, we found:

      •	 Based upon the accounting records, grant-related documents, and
         information provided by the city of Chicago (City) prior to the
         completion of our draft report, we determined that the City’s paid
         expenditures for contracting and other costs were properly
         reviewed, classified, and adequately supported by invoices and
         other documentation regarding services rendered. However, in its
         response to our draft audit report, the City provided new
         information not disclosed during our audit fieldwork, which
         indicates there may have been material misstatements in the
         grant accounting records provided to us during our audit and upon
         which we formed the conclusions in this report. 2

      •	 The financial status and progress reports were generally submitted
         in a timely manner.

      •	 The Chicago PD was in the process of meeting its match
         expenditure requirement.

      •	 The Chicago PD received several grant extensions with the most
         recent grant end date of February 28, 2013. While Chicago PD
         staff stated it should be possible to complete the award by that
         date, the grant is now over 5 years old.

     However, we identified several weaknesses in grant management.
Our audit revealed the following:



      2
          This new information indicates that the report statement above may no longer be
fully applicable, but the City did not provide documentation to substantiate its new
assertions. This issue is discussed in further detail in footnote 3 and Appendix V.

                                          – ii –
       •	 Throughout 2011 and 2012, the Chicago PD continued to use and
          pay for on-going services being provided under a vendor’s contract
          that had expired on December 31, 2010. A staff person with the
          COPS Office stated that this activity would not have been approved
          if the COPS Office had been aware of the situation.

       •	 COPS Technology Program Guidelines require that advances drawn
          down by grantees should not be greater than what is needed for 10
          days. The Chicago PD took an excessive drawdown of $1,401,628
          on December 23, 2010. Grantee officials informed us that the
          drawdown was taken in order to encumber funds on the contract
          that expired on December 31, 2010. Prior to the City entering into
          a new 1-year contract effective May 30, 2012, the City had spent
          $1,039,799 under the expired contract. We question these costs.
          In addition, as of June 30, 2012, $361,829 still remained on hand
          from the above described excess drawdown, and this portion of the
          questioned costs should be returned to the COPS Office and drawn
          down as expended. 3

       •	 Although the above noted advanced funds were held in an interest-
          bearing account, the City did not track or report interest earned.
          The grantee should calculate the interest earned and coordinate

       3
           In its response to our draft report, the City indicated that the grant accounting
records provided to the OIG during the audit (dated June 2012) did not accurately reflect its
activities surrounding the December 2010 drawdown of $1.4 million. As noted throughout
our report, the Chicago PD’s grant accounting records indicated that the cumulative federal
grant expenditures at the time of the aforementioned $1.4 million drawdown totaled
$4,473,165. Including the December 2010 drawdown, the Chicago PD’s cumulative
drawdowns equaled $5,874,793. Thus, we concluded that the grantee took an excessive
drawdown of grant funds representing an advance of funds. We also found that the grantee
used those funds for transactions paid out over the following 18 months, and that those
transactions were executed against a contract that expired on December 31, 2010. We
presented this information to the grantee on multiple occasions prior to the issuance of our
draft report, and City officials informed us that the drawdown was taken with the specific
purpose of encumbering the funds for use against the expired contract. However, the City’s
January 2013 response to our draft report, which is shown in Appendix III, provided an
entirely different explanation for the December 2010 drawdown. Specifically, the City
indicated that it discovered that several transaction postings were erroneous. Not only was
this explanation not suggested previously, the City’s response also indicated that it had not
yet taken action to make corrections to its grant accounting records. After receiving the
City’s response, we made multiple inquiries to the City about any actions that the City had
taken. On July 12, 2013, we received a response from the City that did not clearly indicate
whether or when corrections may have been made. Further, we requested from the City
but were not provided with any revised ledgers as evidence of any adjustments. Because
the only documentation we received from the City substantiates the information in our
report, we have not modified our findings. Appendix V contains a full discussion of these
issues and the status of our recommendations.

                                           – iii –
           with the COPS Office to remedy the situation and put these funds to
           better use.

       •	 Government Accounting Standards Board Statement Number 51
          requires intangible assets be classified as capital assets.
          Accordingly, existing authoritative guidance related to the
          accounting and financial standards for reporting capital assets
          should be applied to the intangible assets. Software development
          or improvement as well as connectivity improvements to enhance
          the CLEAR project costing over $7 million were expensed rather
          than capitalized on the city’s records. 4 In response to our inquiries,
          the City began taking corrective action in March 2012 to properly
          capitalize the intangible assets.

      Our report contains five recommendations to address the preceding
issues, which are discussed in detail in the Findings and Recommendations
section of the report. Our audit objective, scope, and methodology are
discussed in Appendix I.




       4
         Expenses are written off immediately and directly impact the income statement,
whereas capitalization delays the recognition of expenses by recording the expense as a
long-term asset, which is depreciated over time. In other words, the costs are spread out
over a specified period of time thereby reducing the immediate negative affect against
revenues.

                                          – iv –
                               TABLE OF CONTENTS




INTRODUCTION ........................................................................ 1

     Background.......................................................................... 2

     Our Audit Approach............................................................... 2

FINDINGS AND RECOMMENDATIONS........................................ 4

     Accounting and Internal Control Environment ........................... 4

     Grant Drawdowns ................................................................. 6

     Budget Management and Control ............................................ 8

     Transaction Testing ............................................................... 9

     Matching Costs ....................................................................10

     Grant Reporting ...................................................................10

     Compliance with Grant Requirements .....................................11

     Program Performance and Accomplishment .............................11

     Monitoring Contractors .........................................................12

     Views of Responsible Officials ................................................13

     Recommendations ...............................................................13

APPENDIX I:	 OBJECTIVE, SCOPE, AND METHODOLOGY ........ 14


APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS .... 16


APPENDIX III: AUDITEE RESPONSE ...................................... 17


APPENDIX IV: U.S. DEPARTMENT OF JUSTICE RESPONSE ..... 35


APPENDIX V: 	OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS 

             NECESSARY TO CLOSE THE REPORT................. 38

                            INTRODUCTION

      The Office of the Inspector General (OIG), Audit Division has
completed an audit of the Office of Community Oriented Policing Services
(COPS) Technology Program grant number 2007-CK-WX-0034 in the amount
of $5,913,720 awarded to the city of Chicago, Illinois, Police Department
(Chicago PD). The COPS Technology Grant Program is designed to assist
state, local, and tribal law enforcement agencies to procure technology that
enhances the ability to share information with regional, state, and federal
partners. Grants are intended to help facilitate the sharing of information
across multiple jurisdictions, with the ultimate objective of increasing public
safety.

        Specifically, the primary purpose of grant number 2007-CK-WX-0034
was to provide funding to enhance the Chicago PD’s Citizen and Law
Enforcement Analysis and Reporting (CLEAR) System. The CLEAR System is
a comprehensive web-based information infrastructure originally created in
1996 for the Chicago PD and designed to facilitate multijurisdictional data
sharing to identify incipient crime patterns, apprehend offenders, and
prevent crime. The CLEAR System now serves 405 criminal justice agencies
in Illinois, Indiana, Iowa, Minnesota, and Wisconsin. Overall, the goal of the
CLEAR program enhancement funded through this grant was to assist
members of the Chicago PD and its partner organizations in identifying
criminals, coordinating joint law enforcement operations, detecting emerging
crime patterns, informing operational resource deployment decisions,
sharing terrorist threat information, creating emergency response plans,
communicating in real-time with partners during major critical events,
tracking DNA evidence, and solving crimes through advanced data-linking.

       The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) matching
costs, (6) property management, (7) program income, (8) financial status
and progress reports, (9) grant requirements, (10) program performance
and accomplishments, and (11) monitoring of contractors and subgrantees.
However, we determined that payroll, tangible accountable property, indirect
costs, program income, and monitoring of subgrantees were not applicable
to this grant. As shown in Table 1, the Chicago PD was awarded $5,913,720
in federal grant funds to implement the program.
    TABLE 1    . COPS OFFICE GRANT AWARDED TO THE CHICAGO PD 

            GRANT                 AWARD               AWARD
                                                                     AWARD AMOUNT
            AWARD              START DATE            END DATE

     2007-CK-WX-0034            09/0 1/2 007         02/28/2013 5         $5,913,720
                                                            Total:       $5913720
     Source: COPS Office

Background

       The COPS Office was established as a result of the Violent Crime
Control and Law Enforcement Act of 1994 to assist law enforcement
agencies in enhancing public safety through the implementation of
community policing strategies in jurisdictions of all sizes across the country.
Community policing represents a shift from more traditional law enforcement
in that it focuses on the prevention of crime and the fear of crime on a local
basis. Community policing puts law enforcement professionals on the
streets and assigns them to a beat so they can build mutually beneficial
relationships with the people they serve.

       In 2011 the city of Chicago (City) had a population of over 2.7 million
people, and its legal jurisdiction covered 227 square miles. The Chicago PD
is the second largest law enforcement agency in the United States, and it
had budgeted for over 13,500 sworn positions and had an operating budget
of $1,403,611,788 for fiscal year (FY) 2011.

Our Audit Approach

      We tested compliance with what we consider the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the COPS Technology Program Grant
Owner's manuals, grant award documents, and relevant Office of
Management and Budget (OMB) Circulars, and the Code of Federal
Regulations (CFR).

       In conducting our audit, we performed sample testing in the areas of:
( 1) drawdowns, and (2) grant expenditures. In addition, we reviewed the
timeliness and accuracy of Federal Financial Reports (FFR) and progress
reports, evaluated performance to grant objectives, and reviewed the
internal controls related to the financial management system. We also
performed limited work and confirmed that the Chicago PD did not purchase


        5 The award end date includes severa l no-cost extens ions granted by the COPS
Office. The original grant end date was August 31, 2010.


                                           - 2 ­
tangible accountable property, did not receive reimbursement for indirect
costs, did not generate or receive program income, and did not award funds
to sub-grantees. We, therefore, performed no testing in these areas. Our
audit objective, scope, and methodology are discussed in Appendix I.




                                   -3­
               FINDINGS AND RECOMMENDATIONS

     We determined that the Chicago PD was accomplishing and making
     progress in fulfilling the objectives of the grant even though it has not
     spent all of its grant funds and the grant end date had been extended
     several times. However, our audit revealed some weaknesses in grant
     management and accounting issues, including: (1) an excessive
     drawdown of funds totaling $1,401,628 was made on December 23,
     2010, of which expenditures totaling $1,039,799 were made against
     an expired contract and should be remedied; (2) $361,829 of the
     previously noted amount remained unobligated as of June 30, 2012,
     and should be returned; and (3) untracked and unreported interest
     income on the excess drawdown. Finally, as of June 30, 2012, the
     project cost over $7 million for software development to enhance the
     Citizen and Law Enforcement Analysis and Reporting (CLEAR) System,
     and the transactions were expensed rather than capitalized as required
     by Government Accounting Standards Board Statement Number 51.

Accounting and Internal Control Environment

      We reviewed the most recent Single Audit Report and the auditee’s
accounting system to assess its risk of non-compliance with the laws,
regulations, guidelines, and terms and conditions of the grant. We
interviewed Chicago PD and City employees responsible for areas such as
purchasing and accounts payable, and we observed accounting activities to
further assess risk.

Single Audit

        According to OMB Circular A-133, recipients of federal funds are
required to perform a Single Audit annually if they expend more than
$500,000 in federal funds in any year. Single Audits are to be completed no
more than 9 months after the end of the entity’s fiscal year. We determined
that the City was required to have a Single Audit performed in 2010 and that
its fiscal year-end date was December 31, 2010.




                                    -4­
      The Single Audit Report was prepared and issued timely under the
provisions of OMB Circular A-133. We reviewed the independent auditor’s
assessments, which disclosed no weaknesses, noncompliance issues, or
cross-cutting findings related to Chicago PD’s grant management. 6

Financial Management System

      We reviewed aspects of the Chicago PD’s financial management
system and found there was sufficient separation of duties and the operating
procedures were documented. The operations we observed at both the
Chicago PD and City Comptroller’s Office included an adequate control
structure, including experienced and qualified personnel, active
communication among staff and management, and relatively low turnover.
However, as discussed later in this report, we identified weaknesses related
to drawdown requests and contract transactions.

Accounting Records

      According to COPS Office Guidelines, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system
should ensure, among other things, the identification and accounting for
receipt and disposition of all funds, funds applied to each budget category
included in the approved award, and non-federal matching contributions.

      The Grant Administrator was a full-time employee of the Chicago PD.
His responsibilities were to oversee the contractors, monitor grant progress,
submit progress reports, and ensure that the grant objectives were being
met. The Chicago PD’s Finance Department reviewed and approved invoices
before submitting them to the City Comptroller’s Office. The City

       6
          We noted one finding related to the City Comptroller’s Office not tracking interest
earned on Byrne Justice Assistance grant cash advances. The City Comptroller’s Office and
Treasurer’s Office worked together to identify funds needing to be kept in segregated
accounts where interest earned is calculated by the Treasurer’s Office and allocated by
General Accounting. Although the City reported that this process was implemented in 2011,
interest income was not tracked and reported on over $1.4 million in advance funds drawn
down by the Chicago PD on grant number 2007-CK-WX-0034 because these funds were
improperly reported by the Chicago PD as an encumbrance. See additional discussion under
the Grant Drawdowns section of the report.

       In addition, a second finding related to the City Comptroller’s Office reporting fund
balances using improper cutoff dates. This weakness might cause grant transactions to not
be reported in the Single Audit in the correct time period. It was not possible to confirm
whether corrective action was taken as the Single Audit for 2011 was not yet due and had
not been submitted at the time of our review. In our opinion, this finding has no impact on
the Chicago PD’s administration of the DOJ grant.


                                           -5­
Comptroller’s Office tracked the budget, requested drawdown of funds,
processed invoices, and maintained the official accounting records.

       The official accounting records for the Chicago PD were created and
maintained by the City Comptroller’s Office. Government Accounting
Standard Board (GASB) Statement Number 51, effective in June 2009,
requires intangible assets, such as software purchases, be capitalized in the
same manner as the grantee capitalizes tangible assets in its financial
statements. As of June 30, 2012, payments on the CLEAR project exceeded
$7 million. Chicago PD staff confirmed that CLEAR project costs incurred
through 2011 had been expensed rather than capitalized. 7 As a result of our
inquiries, the city began taking corrective action in March 2012 to properly
account for intangible assets.

Grant Drawdowns

      COPS Technology Program Guidelines establish methods under which
the awarding agency makes payments to grantees. The methods and
procedures for payment established by the federal government are designed
to minimize the time elapsed between the transfer of funds by the
government and the disbursement of funds by the grantee. Recipients
should time drawdown requests to ensure that federal cash on hand is the
minimum needed to pay for actual or anticipated costs within 10 days.

      Chicago PD Finance Department staff stated that drawdowns were
based on actual expenditures in the accounting records. As shown below,
we compared drawdowns to actual expenses recorded in the Chicago PD
accounting records as of June 2012 and found that the City requested a
drawdown in December 2010 for $1,401,628 and that this expenditure was
not supported by any expenditure records for that time period.




       7
         Expenses are written-off immediately and directly impact the income statement,
whereas capitalization delays the recognition of expenses by recording the expense as a
long-term asset, which is depreciated over time. In other words, the costs are spread out
over a specified period of time, thereby reducing the immediate negative effect against
revenues.


                                           -6­
           TABLE 2. DRAWDOWNS VERSUS ACCOUNTING RECORDS

                                 GRANT
                                                                                DIFFERENCE
 DATE OF        AMOUNT        EXPENDITURES      CUMULATIVE     CUMULATIVE
                                                                               (CUMULATIVE
DRAWDOWN        DRAWN              FOR          DRAWDOWNS     EXPENDITURES
                                                                               DRAWDOWNS
  PER THE      DOWN PER        DRAWDOWN           PER THE          PER
                                                                                  MINUS
  COPS         THE COPS        PERIOD PER         COPS        ACCOUNTING
                                                                               CUMULATIVE
  OFFICE        OFFICE         ACCOUNTING         OFFICE       RECORDS
                                                                                EXPENSES)
                                RECORDS

10/01/2008      $1,303,711       $1,303,711      $1,303,711     $1,303,711                $0

06/04/2009         656,008          656,008       1,959,719      1,959,719                  0

12/03/2010       2,513,446        2,513,446       4,473,165      4,473,165                  0

12/23/2010       1,401,628                  0     5,874,793      4,473,165        1,401,628

11/30/2011                0         515,189       5,874,793      4,988,354          886,439

03/31/2012                0         271,041       5,874,793      5,259,395          615,398

06/30/2012                0         253,569       5,874,793      5,512,964          361,829

  TOTAL       $5,874,793       $5,512,964       $5,874,793     $5,512,964         $361,829
Source: Chicago PD and COPS Office

      According to the Chicago PD Grant Administrator, the City only makes
payments on open contracts or for existing expenses. We were told that the
December 23, 2010, drawdown of $1,401,628 was made in order to
encumber funds against a contract that expired on December 31, 2010. 8
However, in violation of COPS Technology Program Guidelines, there were
no corresponding federal expenditures needing immediate payment.

       Chicago PD officials stated that the police department may not enter
into large contracts such as this on its own but rather that it must request
the contracts be bid, approved, and issued by the City. This involves the
City procurement, contract, and legal departments, and awarding new
contracts can be a lengthy process. As a result of the length of time it takes
to award a new contract, the grantee processed funds in this way in order to
comply with the City’s requirement that payments should be made, or
pending, on open contracts.


       8
          The Chicago PD received permission from the COPS Office to award a software
contract to a sole source vendor. This vendor had developed the original CLEAR program
software for the Chicago PD. The Chicago PD utilized an existing City contract to this major
software vendor to upgrade its CLEAR system. Over the life of the project, this vendor
would be paid 90 percent of the approved costs budgeted for the audited grant. From the
time the City’s contract expired on December 31, 2010, through June 30, 2012, the Chicago
PD had paid an additional $1,039,799 to the vendor. There were no federal expenditures
during June 2012.


                                            -7­
       Further, a City official stated that this was not the first time this
procedure was utilized and that all departments were informed by the
Mayor’s Office that it was no longer an acceptable practice to encumber
funds and make payments on expired contracts. Although requested, City
officials were unable to provide documentation of this instruction, which they
stated occurred around June 2011. While the grantee was not specifically
required to notify the COPS Office that it was utilizing the approved sole
source vendor after the contract expired, a staff person with the COPS Office
stated that this activity would not have been approved if the COPS Office
had been aware of it.

      During our review, the City subsequently entered into a new 1-year
contract effective May 30, 2012. Prior to entering into the new contract, the
Chicago PD had expended $1,039,799 under the expired contract. We
question as unallowable the entire amount expended while the contract was
expired. We also question as unsupported the excess drawdown of
$361,829, which remained on hand as of June 30, 2012.

      Further, a staff person in the City Comptroller’s Office stated that the
excess drawdown was held in an interest-bearing account and the funds did
earn interest. However, because it was improperly coded as an
encumbrance and not an advance, the staff person could not readily
determine the amount of interest earned-to-date. According to COPS
Technology Program Guidelines, state and local entities receiving federal
financial assistance are allowed to retain up to $100 in interest earned on
funds held in interest-bearing accounts. The grantee should calculate the
amount of interest earned on this substantial, long-held excess drawdown,
and the COPS Office should ensure that these funds are put to better use.

Budget Management and Control

      The grant award’s total project costs were identified as $7,884,960,
including $5,913,720 in federal funds and local match of $1,971,240. The
bulk of the budget was to provide the Chicago PD with funding to enhance
and support the Chicago PD’s CLEAR system.

      We assessed the grantee’s expenditures in the budget categories as
indicated in the accounting records we received dated June 2012 and
determined that the Chicago PD adhered to the grant requirement to spend
grant funds within the approved budget categories. Table 3 identifies each
of the budget categories and the amount that the Chicago PD had spent as
of June 30, 2012.




                                     -8­
                TABLE 3     . BUDGET MANAGEMENT AND CONTROL 

                                                              A CTUAL E X PENDITURES
                C OST CATEGO RY           GRANT BUDGET
                                                               (AS OF 6/30/2012)
             Personnel                                  $0                            $0

             Fringe Benefits                             0                              0

            Travel                                  7,2 18                        6,084

             Equipment                                   0                              0

             Supolies                                    0                              0

             Construction                                0                              0

             Co ntra cts/Co nsu Ita nts        5,996,742                     5,506,88 1

             Other                             1,88 1,000                   1,747, 158 9

            T OTAL DIRECT COSTS                7,884,960                   7260 , 1 22 10
                                                                            ,
             Indirect Costs                              0                              0

            TOTAL                           $7,884,960                    $7, 260,122

             FEDERAL FUNDS                  $5, 913,720                   $5, 512,964

             LOCAL MATCH                    $1, 971,240                   $1, 747,158
            Source : COPS Office and Chicago PO

Transaction Testing

       We reviewed the general ledger account designated for the grant and
found that as of June 20 12, the records indicated t here were a total of
39 grant-funded transact ions totaling $4,988,354 from Sept ember 1, 2007,
t hroug h November 30,20 11. We selected for review 18 grant transact ions
totaling $3,54 1,509, or 71 percent of the grant expenditures as of
November 30,20 11, and fou nd t hat the expenditures were properly
reviewed, approved, classified, s u pported, and charged to the grant. 11 As

          9 The " Ot her " category included contractor licens ing and ma int enance cost s, as well
as t he purchase of software licenses. As of June 30 , 20 12, Other cost s have all been pa id
for w it h local m atch ing fu nds .

       10   The sum of t he ind ividu al numbers is greater than the tota l shown due to roundi ng.

          II Our find ings re levant to expend itures made agai nst t he expi red contract are

discussed in t he Gra nt Drawdowns section of t his report. In add it io n, in its response to our
draft aud it report, the City indicat ed t hat there were material m isst atements in t he grant
accou nt ing records prov ided for aud it and upon which we formed these conclusions. The
Cit y 's response has been included in our report as Appendix III. Appe ndix V conta ins our
ana lysis of the City's response and a det ai led discuss ion of t he impact of t he City's
statements.


                                               -9 ­
shown in Table 3, as of June 30, 2012, grant expenditures were $5,512,964,
which was 76 percent of the total program expenditures.

Matching Costs

      Under grant number 2007-CK-WX-0034, the Chicago PD was required
to provide $1,971,240 in local matching funds, which represents 25 percent
of the total project budget of $7,884,960. According to the accounting
records dated June 30, 2012, the match contribution was $1,747,158, which
represented 24 percent of total expenditures. The Chicago PD was meeting
its match requirement by paying a portion of the contractor billings for the
CLEAR project for which they were not reimbursed. We reviewed three
matching transactions totaling $864,886 for allowability and supporting
documentation and found no discrepancies.

Grant Reporting

      According to COPS Technology Program Guidelines, award recipients
are required to submit both financial and program progress reports. These
reports describe the status of the funds and the project, compare actual
accomplishments to objectives, and report other pertinent information.

Federal Financia l Reports

       The COPS Office requires grantees to submit Federal Financial Reports
( FFR) no later than 30 days after the end of each quarter. As shown in
Table 4, we reviewed the last six filed FFRs and determined that they were
submitted timely.

          TABLE 4   . FEDERAL FINANCIAL REPORT TIMELINESS
                REPORT PERIOD                  FFR DUE         DATE        DAYS
   No.
               FROM - To DATES                  DATES       SUBMITTED      LATE
    1    10/ 01/ 2010   to   12/ 31/ 2010      01/ 30/ 11   01/ 05/ 2011    0
    2    01/ 01/ 2011   to   03/ 31/ 2011      04/ 30/ 11   04/ 11/ 2011    0
    3    04/ 01/ 2011   to   06/ 30/ 2011      07/ 30/ 11   07/ 19/ 2011    0
    4    07/ 01/ 2011   to   09/ 30/ 2011      10/ 30/ 11   10/ 19/ 2011    0
    5    10/ 01/ 2011   to   12/ 31/ 2011      01/ 30/ 12   01/12/ 2012     0
    6    01/ 01/ 2012   to   03/ 31/ 2012      04/ 30/ 12   04/ 19/ 2012    0
   Source. COPS Office and OIG AnalysIs

      We also reviewed the last six FFRs for accuracy and found that the
reports accurately reflected grant-funded expenditures for the reporting
periods.


                                            - 10 ­
Program Progress Reports

      According to COPS Technology Program Guidelines and responses to
Frequently Asked Questions, progress reports are due annually to the COPS
Office 30 days after being requested. We reviewed the three most recent
progress reports and found that the 2009 and 2011 progress reports were
submitted timely, and the 2010 progress report was submitted 1 day late. A
Chicago PD grant official stated that the grantee attempted to file on time
but was unable to because the COPS Office was experiencing technical
problems with its website. The COPS Office Grant Manager confirmed that
the COPS Office website was experiencing problems at that time; therefore,
we do not consider the 2010 progress report to be late.

      The reports we reviewed appeared to be acceptable in form and
content; reports were completed in a survey format rating a series of
program performance statements on a scale of 1 to 10. The reports we
reviewed were completed fully and appeared relevant to performance of the
grant-funded program.

Compliance with Grant Requirements

       We reviewed the special conditions of the grant award as well as COPS
Technology Program Guidelines and identified two key requirements:
(1) attendance at the COPS Office’s technical assistance "kickoff"
conference by the grantee, and (2) scheduling a technical assistance site
visit through a COPS Office-funded National Technical Assistance Program.
We found that Chicago PD employees attended the COPS Office’s technical
assistance "kickoff" conference in December 2007. In 2010, Office of Justice
Programs (OJP) staff made a site visit to the Chicago PD and reviewed grant
compliance for all OJP and other open DOJ awards. In the report, OJP noted
that the Chicago PD had not had a technical site visit as required. The
Chicago PD took immediate corrective action and, prior to our review, a
technical on-site visit was made in 2011.

Program Performance and Accomplishment

      According to the Chicago PD, it is committed to protecting the lives,
property, and rights of all people; to maintaining order; and to enforcing the
law impartially. In addition, the Chicago PD states that it is incurring higher
homeland security expenses because the City has many identifiable targets,
and non-terrorist threats to public safety continue to emerge while at the
same time the City is experiencing lower than anticipated revenues.




                                    - 11 ­
        The CLEAR system is a comprehensive web-based information
infrastructure originally created in 1996 for the Chicago PD and designed to
facilitate multi-jurisdictional data sharing to identify incipient crime patterns,
apprehend offenders, and prevent crime. Some critical information
technology infrastructure areas needing development or expansion being
paid for by the grant included:

      •	 Updating the Hot Desk System so that it would have
         interconnectivity between various law enforcement databases. On
         all police stops and contacts in the field, officers make multiple
         queries in order to develop a comprehensive history for an
         individual.

      •	 Creating regional threat profiles within a centralized system to
         report and record suspect and terrorist subject information that is
         crucial to the development of a regional capacity for effective
         emergency response and communication.

      •	 Expanding the Facility Information Management System to allow for
         external Internet access so that businesses, utilities, schools, and
         other community members in the Chicago area can voluntarily
         provide information to law enforcement officials.

      •	 Providing an automated evidence tracking and retrieval information
         sharing component to the Illinois State Police DNA database for
         specimen analysis and classification.

      We obtained a report on the status of the CLEAR enhancement project,
and it showed that the Chicago PD had completed several modules of the
project. The project manager stated that the Chicago PD is still working on
two modules due to data routing problems caused by the Chicago PD’s
reorganization and reduction in the number of districts and area offices. We
randomly selected and interviewed a Chicago Police Detective, a Cook
County Deputy Chief of Staff, and an Illinois State Police Program
Management Director. All three users stated they were satisfied with the
CLEAR system. Finally, we also toured the emergency response center, as
well as observed modules of the CLEAR system in operation. We believe
that the CLEAR system has been enhanced through the provision of the
audited grant.

Monitoring Contractors

      The Chicago PD overall Grant Project Manager stated that the City’s
legal department and purchasing process covers the pre-award evaluation of


                                      - 12 ­
contractors’ financial management systems and associated policies,
procedures, and internal controls. Currently, the Chicago PD overall Grant
Project Manager monitors the major contractor’s performance through
regular meetings with the contractors, working closely together, and
reviewing status reports. Additionally, the Chicago PD Information
Technology staff confirmed that the completed grant modules are working as
required before being provided to police officers. Finally, the contractor
invoices are reviewed by an officer in the Chicago PD Finance Department.
Contractor employee time cards are also verified to confirm the work billed
was performed and that all expenses were allowable and reasonable.
Invoices were also reviewed by the City Comptroller’s Office prior to
payment. In our opinion, the contractor oversight appeared to be adequate
even though the contract was expired.

Views of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference. We have included
their comments as appropriate.

Recommendations

     We recommend that the COPS Office:

     1. Confirm that the city of Chicago has complied with GASB 51 on the
        capitalization of intangible assets relating to the CLEAR project.

     2. Require the grantee to implement procedures to ensure that grant
        drawdowns are not in excess of immediate grant needs.

     3. Remedy the $1,039,799 in unallowable questioned costs for
        expenditures made under an expired contract.

     4. Remedy the $361,829 in unsupported costs resulting from an
        excessive drawdown of grant funds.

     5. Remedy the funds to better use from interest earned on the
        excessive advance drawdown of COPS Office funds.




                                  - 13 ­
                                                              APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

       The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, (4) budget management and control, (5) matching
costs, (6) property management, (7) program income, (8) financial status
and progress reports, (9) grant requirements, (10) program performance
and accomplishments, and (11) monitoring of contractors and subgrantees.
However, we determined that payroll, tangible accountable property, indirect
costs, program income, and monitoring of subgrantees were not applicable
to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective. This was an audit of a COPS Technology Program grant
number 2007-CK-WX-0034 awarded to the Chicago PD for $5,913,720.
According to the grant accounting records provided to us, the Chicago PD
had a total of $5,874,793 in drawdowns through June 30, 2012. Our
audit concentrated on, but was not limited to, the inception of the grant
on September 1, 2007, through November 30, 2011, and included such
tests as were considered necessary to accomplish our objective. We also
obtained updated accounting ledgers as well as reports submitted through
June 30, 2012. Our audit conclusions and recommendations are based
upon these grant records.

      In conducting our audit, we reviewed FFRs and progress reports, and
we performed sample testing of grant expenditures. We tested invoices
associated with transactions shown in the Chicago PD’s general ledger as of
November 30, 2011. Our testing was conducted by judgmentally selecting a
sample of expenditures, along with a review of internal controls and
procedures, for the grant that we audited. Judgmental sampling design was
applied to obtain broad exposure to numerous facets of the grant reviewed,
such as dollar amounts, expenditure category, or risk. We selected 18 grant
($3,541,509) and 3 matching expenditures ($864,886) totaling $4,406,395.


                                   - 14 ­
This non-statistical sample design does not allow for projection of the test
results to the universes from which the samples were selected.

      In addition, we performed limited testing of source documents to
assess the timeliness and accuracy of FFRs, reimbursement requests,
expenditures, and progress reports; evaluated performance to grant
objectives; and reviewed the grant-related internal controls over the
financial management system. However, we did not test the reliability of the
financial management system as a whole and reliance on computer-based
data was not significant to our objective.




                                    - 15 ­
                                                                        APPENDIX II


            SCHEDULE OF DOLLAR-RELATED FINDINGS

Description                                                   Amount        Page

Questioned Costs 12

      Unallowable expenditures against
      expired contract                                        $1,039,799      8
      Total Unallowable                                       $1,039,799

      Unsupported drawdown of grant funds
      (remaining funds on hand as of June 2012)               $361,829        8
      Total Unsupported                                       $361,829

Net Questioned Costs……………………………………$1,401,628

_________________________________________________


Total Net Dollar-Related Findings…………………..$1,401,628




      12
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.


                                         - 16 ­
                                                                                                        APPENDIX III


                                  AUDITEE RESPONSE




                                           DEPARTMENT OF L AW

                                             C ITY OF C HI CAGO




BY HAND-DELIVERY, FACSIMILE AND EMAIL

January 31, 2013

Carol S. Taraszka
Regional Audit Manager
Chicago Regional Audit Office
Office 0 f Inspector General
U.S. Department of Justice
500 West Madison Street, Suite 1121
Chicago, Illinois 6066 1-2590

 Re:     City of Chicago's Respo';se to Draft Audit Report Relating to Office of Community
         Policing Services ("COPS") Technology Program Grant Number 2007-CK-WX-
         0034

Dear Ms. Taraszka:

We are writing to provide the response ("Response") of the City of Chicago ("City") to the Draft
Audit Report ("Draft Report") of the Office of Inspector General ("OIG") relating to the COPS
Technology Program Grant Number 2007-CK-WX-0034 ("Grant") awarded to the Chicago
Police Department ("CPD" or "Department"). The Draft Report contains findings and five
recommendations to the COPS Office ("Recommendations"). You ask in your cover letter dated
December 18, 2012, that we state whether we agree or disagree with each of the
Recommendations. I

As a threshold maner, we appreciate your agreement to extend the time for this Response
(originally due within 21 days from the date of the Draft Report, or January 8, 2013) until
January 31 , 20 13.


I While the Draft Report origi nally was directed to CPD S uperintendent Garry F. McCarthy, it was forwarded to the
City of Chicago Law Department to hand le because it required the coordination and compilation of input trom
multiple C ity departments into one consolidated response.


                   12 1 NO RTH LA S ALL E STR EET, ROO M 600, CHICAG O, ILLI NO IS 6 06 0 2




                                                      - 17 ­
    Ms. Carol S. Taraszka
    January 31, 2013
    Page 2

    THE OIG DRAFT AUDIT REPORT

    The Draft Report recognizes that the primary purpose of the Grant was to provide funding to
    enhance the CPD's Citizen and Law Enforcement Analysis and Reporting Information System
    ("CLEAR System"), and that the majority of the grant funds were paid to one COPS-approved
    sole-source vendor used to develop and improve CLEAR program software.' Moreover, there is
    no question that all expenditures of Grant funds were used for payment of pre-approved costs,
    that is, for the purchase of items and services approved by the COPS Office as reflected in the
    Financial Clearance Memorandum.' The Draft Report contains no findings that the CPD used
    any Grant funds for any costs other than those approved by COPS as properly within the scope
    of this Grant. In fact, the Report found that the CPD adhered to the Grant requirement to spend
    Grant funds within the approved budget categories'

    Furthermore, the Draft Report makes specific findings that the Department properly documented
    all costs, and submitted all financial and status reports properly and in a timely manner. 5 Based
    on their review, OIG auditors found that CPD's expenditures "were properly reviewed,
    approved, classified, supported, and charged to the grant.'" The Report also concluded that the
    CPD was properly meeting its matching expenditure requirement, and properly requested and
    received several grant extensions, with the most recent Grant end date of February 28, 2013.'

Finally, there is no question that the CPD is meeting the goals of this Grant. We applaud the
Report's confirmation that randomly-selected users of the CLEAR System, from three separate
agencies (the CPD, Cook County Sheriff, Illinois State Police) were all satisfied with the system
and that "the CLEAR system has been enhanced through the provision of the audited grant.'"
There is no doubt that this COPS Grant, through the enhancements to the CLEAR System, has
aided the CPD's core mission of protecting lives, property and the rights of all people, by
"facilitat[ing] multi-jurisdictional data sharing to identify incipient crime patterns, apprehend
offenders, and prevent crime,,,9

Despite these successes, the administration of this Grant was not perfect, as noted in the
Background section, below. The City acknowledges that there is room for improvement, and we

2    See Draft Report at i, ii.

) See Law Enforcement Technology Financial Clearance Memorandum, attached hereto as Exhibit A.

4    See Draft: Report at 8-9 .

5    See id. at ii, 9-11.

6    lei. at 9.

7    ld. at i, ii, 10.

8    Id. at 11-12.

9    lei. at II.




                                                  - 18 ­
     Ms. Carol S. Taraszka
     January 31, 2013
     Page 3

 express our appreciation for the careful audit that illuminated several weaknesses. However,
 none of the weaknesses identified indicate any violations of federal, State or local laws,
 regulations, or other guidance. or any Grant conditions, assurances or certifications.

 As explained in detail below, the City agrees with one of the Draft Report's five
 Recommendations (Recommendation # 1), agrees in part, and disagrees in part, with one
 (Recommendation #2), and disagrees with the remaining Recommendations (Recommendations
 #3, #4, and #5). Most particularly, as to Recommendation #3, the City strongly disagrees that
 the costs spent under an expired City contract should be deemed "unallowable." As noted
 below, there is no question that those funds were properly spent on costs approved in the Grant's
 Financial Clearance Memorandum, and the payment of funds for services rendered under the
 expired contract was lawful under the contract's survival provision and under the Chicago
 Municipal Code.

 BACKGROUND

The Award-Winning CLEAR System
The COPS Technology Grant Program "is designed to assist state, local, and tribal law
enforcement agencies to procure technology that enhances the ability to share information with
regional, state, and federal partners.,,10 This particular Grant enabled the Department to expand
its award-winning CLEAR System, which already serves over four hundred and fifty (450) local,
state, and federal criminal justice agencies, by adding critical components to enhance its
effectiveness and enable participation from even more partners in the Great Lakes Region,
including counties in IlIinois, Indiana, and Wisconsin." The CLEAR System serves as a model
system for police data processing and analysis, and has been featured at workshops and
conferences around the United States, including most recently at the National Institute of Justice
conference in Washington, D.C., last summer. CLEAR now exchanges data with the Law
Enforcement National Data Exchange ("N-DEx"), making Chicago the largest jurisdiction in the
nation to participate in this interoperable platform.

The Grant
The award start date for the Grant was September 1, 2007. The Grant's original end date was
August 31, 2010, but COPS granted several no-cost extensions, so that the current award end
date is February 28, 2013. The 2007 COPS Technology Program "provides up to 75 percent of
the costs of allowable items, and grantees are required to contribute a minimum local cash match
of 25 percent toward the total cost of the approved grant project."" Here, the total approved
budget for the project is $7,884,960, with the federal Grant covering 75% of the total budgeted
cost ($5,913,720), and the City to provide 25% in local matching funds ($1,971,240).'3
10    Id. at i, I.

II    Id. at i, 1-2.

12    U.S. Department o f Justice, Office of Community Oriented Policing Services, 2007 Technology Program Grant
Owner's Manual ("COPS Manual") at 47.

13    Draft Report at i, 2, 9.




                                                      - 19 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 4


Grant Payments and Matching Contributions
A grantee may choose to take grant payments from a funding source either in advance of
expenditures or as reimbursement of expenditures. '4 If advances are requested, certain steps
must be taken to meet grant requirements pertaining to advances, including relatively quick
disbursement of those funds." Reimbursement is the "preferred method" when it is difficult to
"minimize time elapsing between the transfer of the [grant funds] and their disbursement by the
grantee. n 16

Where, as here, a grant requires a relatively short period between receiving an advance of grant
funds and disbursing those funds,17 the City follows the "preferred method" of reimbursement.
The City does this to avoid inadvertently violating the requirements applicable to advances. As
for how often an agency may request reimbursements for expenditures made, the COPS Manual
provides:
           [t]here are no limitations on how often [an] agency may request reimbursements.
           However, reimbursement is only for items that were approved in the Financial
           Clearance Memorandum under the Technology Program grant. As a general
           guideline, most agencies request reimbursement on a monthly or quarterly basis.'8
As for the City's portion of the project expenditures, that is, its 25% match, federal guidance
allows grantees much flexibility in meeting its obligations. According to the COPS Manual,
"[m]atching contributions may be applied at any time during the life of [the] grant, provided that
the full matching share is obligated by the end of the grant period." " Thus, a grantee would be
permitted to draw down and apply Federal grant funds to the first 75% of project expenditures,


" 28 C.F.R. §66.21(c), (d).

IS 28 C.F.R. §66.21(c) ("Grantees and subgrantees shall be paid in advance, provided they maintain or demonstrate
the willingness and ability to maintain procedures to minimize the time elapsing between the transfer of the funds
and their disbursement by the grantee or subgrantee.").

16   28 C.F.R. §66.2 1(c), (d).

 1 See COPS Manual at 38 ("There should be no excess grant funds on hand , except for advances not exceeding ten
  7
days ... "); U.S. Department of Justice, Office of Justice Programs ("OJP"), Office of the Ch ief Financial Officer,
2011 Financ ial Guide ("OJP Guide") at 27 ("Drawing Only What Is Needed - Your organization should request
fund s based upon immediate disbursement/reimbursement requirements . Funds will not be paid in a lump sum, but
rather d isbursed over time as project costs are incurred or anticipated ... You should time your draw down requests
to ensure that Federal cash on hand is the minimum needed for disbursements/reimbursements to be made
immediately or within 10 days."); U.S. Department of Justice, Office of Justice Programs, Office of the Comptroller,
2006 Financial Guide ("2006 OJP Guide") at 37·38 (same).

1&   COPS Manual at 39.

19 COPS Manual at 47; see also OJP Guide at 35 ("Matching contributions do not need to be applied at the exact
time or in proportion to the ob ligation of the Federal funds. However, the full matching share must be obligated by
the end of the award period ."); 2006 OJP Guide at 48 (same).




                                                      - 20 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 5

 and apply local matching funds to the last 25% of the expenditures, so long as those matching
 funds were obligated by the grant end date.

 The City's Project Expenditures and Grant Drawdowns
 Here, the City paid 100% of all vendor invoices with City general funds, and, for the entire life
 of the project to date, has sought reimbursement only for actual expenditures already made. The
 City never sought any advances, but carried all of the costs of the project itself before seeking
 federal reimbursement. At no time during the course of the Grant were Federal funds drawn for
 expenditures that did not occur prior to such draw.

As the attached chart shows, the City's first payment for project costs was made on December
31, 2007, four months after the grant start date. 20 The City then made actual payments of
$1,303,710.35 of City money for over nine months, before seekin\l the first draw of Grant funds
for the exact amount of its expenditures on September 23 , 2008.' Over the next eight months,
the City spent another $656,008.10 of its own funds, and then made a second drawdown on June
3,2009, for exactly the amount of its actual expenditures."

As for the City' s third drawdown of Grant funds on December 2, 2010, the City only sought
Federal reimbursement for a portion of its actual expenditures as of that date. Between June
2009 and October 2010, the City actually spent $3 ,915,073.78 of its own money on approved
project costs, but it only sought reimbursement for $2,513 ,446.12 .'3 Twenty days later, on
December 22, 2010, the City drew down Grant funds to cover the exact amount of the
unreimbursed balance of its actual expenditures ($1 ,40 I ,627.66).24

Over the entire life of the project, the City only has drawn down Federal funds for the amount of
City funds it has actually already spent on approved project costs. This holds true even for the
fourth drawdown on December 22, 2010, which is the drawdown at issue in the Draft Report. As
the attached Grant Expenditures Chart shows, the drawdown on December 22, 2010, was for
$1 ,401 ,627.66, exactly the amount of the unreimbursed actual expenditures the City had already
made before that date. As of December 22, 20 I 0, the City had actually disbursed out of City
general funds a total of $5,874,792.88 for approved project costs, which corresponds exactly to
the total cumulative Grant funds the City had drawn down in four installments as of that date.
Thus, with the fourth draw, the City did not draw down any more Grant funds than it had already
expended of its own money.



20 City of Chicago COPS Technology Program Grant, Summary Chart of Expenditures (prepared by Office of
Comptroller staff - dated 112512013) ("Grant Expenditures Chan"), attached as Exhibit B.

21   Id

22   fd.

ZJ   fd.

24   [d.




                                               - 21 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 6

 The confusion that the City caused - and that the Draft Report highlights - arises from an
 internal accounting step that the City took that was not noticed when the Comptroller's Office
 made the fourth drawdown on December 22, 2010. That fourth drawdown was made precisely
 because the City had incurred $1,401,627.66 in actual expenditures as of that date that had not
 yet been reimbursed by Federal Grant funds. What was not noticed is that the City had at that
 point already earmarked those City disbursements to be reported in its general ledger as City
 matching expenditures." Thus, although the City was entitled to seek Federal reimbursement for
 those expenditures, the City instead designated them as expenditures not to be reimbursed, as a
 purely internal accounting entry. Because the only requirement relating to the City's 25% match
 is that "the full matching share is obligated by the end of the grant period," there is no reason the
 City could not take the $1,40 I ,628 reimbursement on December 22, 20 I 0, and use later
 expenditures to meet its 25% match.

2009 OJP Site Visit and Follow-Up Letter
Although the City was not required under Federal guidelines to refrain from seeking
reimbursement for the $1,401,627.66 in already-spent City moneys (since the costs were
allowable and the Grant funding level of 75% had not yet been met),26 the City made the
decision to start earmarking those expenditures of City funds as its matching contribution. The
City did so as a result of earlier OJP feedback.

In particular, OJP grant management personnel performed a site visit to the Chicago Police
Department on October 19-21 ,2009, for the purpose of "perform[ing] routine grant financial
monitoring and provid[ing] technical assistance for grants awarded by the Department of
Justice."" In follow-up correspondence dated November 10, 2009, the OJP Staff Accountant
noted that "the City had not recorded any matching expenditures in their accounting system" for
the COPS Grant as of the date of the site visit. 28 That letter further noted that matching
contributions could be applied at any time before the end of the grant award period:

           The City is reminded that the entire balance of matching funds required under
           these awards must be obligated prior to the end of the award period ... and
           expended within 90 days thereafter. Per OJP's Financial Guide, matching

25 The staff person from the Comptroller's Office who actually initiated the fourth drawdown on December 22,
2010, confirmed that he made that drawdown because there were expenditures in the amount of $ 1,401 ,627. 66 for
which the City had not yet sought Federal reimbursement, and he failed to notice that those ex penditures had been
flagged with an internal reporting category designation as City matching contributions for which no reimbursement
would be sought.

26   See COPS Manual at 47; OJP Guide at 35; 2006 OJP Guide at 48 .

27  See Letter dated September 23 , 2009, from Corazon O. Blumenstein, Staff Accountant, Grants Financial
Management Division, Office of the Chief Financ ial Officer, Office of Justice Programs, U.S. Department of
Justice, to Larry Sachs, CPO Director of Grants Management, at I, attached hereto as Exhibit C.

28   See Letter dated November 10, 2009, from Corazon O. Blumenstein, Staff Accountant, Grants Financial
Management Division, Office of the Chief Fi nancial Officer, Office of Justice Programs, U.S . Department of
Justice, to Larry Sachs, CPD Director of Grants Management, at 2, attached hereto as Exhibit O.




                                                     - 22 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 7

              contributions need not be applied at the exact time or in proportion to the
              obligation of Federal award funds. However, the full matching share must be
              provided by the end of the period for which the Federal funds have been
              available. 29

The CPD's response to OJP's November 10'h Letter was non-committal about whether the City
would start allocating expenditures to its matching share, although it was fully cognizant of the
requirement to do so before the end of the Grant period:

              In the case of [the COPS Grant], CPD has a cash match responsibility and it is
              noted that this grant is still active. CPD will document that it has met its match
              responsibility through final fiscal reporting, and internal accounting system
              records will be available to back-up that fiscal reportin% and will demonstrate
              exactly how City cash match for this grant was expended]

The City's Internal Accounting Changes Following the OJP Site Visit
Nonetheless, following the OJP site visit and follow-up letter, CPD Finance Division personnel
began earmarking vendor invoices - all of which would initially be paid with City general fund s
- as either to-be-reimbursed by Federal Grant funds or not-to-be-reimbursed by Federal funds.
In order to track the City expenditures destined for Federal reimbursement and those that were
not, a separate reporting category was set up in the City's general ledger. As shown on the
attached Grant Expenditures Chart,3l starting in November 2009, individual invoices were
marked as being placed in the original reporting category - "07EPO 1" - as City expenditures to
be reimbursed by Grant funds, or in the newly-created reporting category - "07EP02" - as
expenditures for which the City did not intend to seek Federal reimbursement. These reporting
categories were meant as an internal tracking tool, that is, as a way to track expenditures in the
general ledger, which would assist in the eventual reconciliation process at the end of the Grant
period. The City's designation of a vendor invoice as "07EP02" in no way signified an
ineligibility of those costs for Federal reimbursement. Indeed, all such costs were allowable
Grant costs, initially paid with City general funds, and all were eligible for Federal
reimbursement, well within the Federal 75% commitment.

As shown on the attached Grant Expenditures Chart, for the payments made from City funds
between June 9, 2009 and October 28, 20 10, some of the expenditures are designated as
"07EPO l " and some are designated as "07EP02.,,]2 Although all of the listed expenditures were
eligible for reimbursement with Grant funds, the City began designating some as City matching

29   Id.

30 See Letter dated March 4. 2010, from Larry E. Sachs, CPO Director of Grants Management, to Corazon O.
Blumenstein , Staff Accountant, Grants Financial Management Division, Office of the Chief Financial Officer,
Office of Justice Programs, U.S. Department of Justice, at 2, attached hereto as Exhibit E.

JJ   See Exhibit B.

32   See id




                                                   - 23 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 8

 expenditures. The first City payment that was designated as not targeted for Federal
 reimbursement was the payment made on November 2, 2009, to the City's approved sole source
 vendor, clearly an allowable cost under the Grant.

 Thus, the third drawdown made on December 2, 20 I0, was for the actual City disbursements
 made before that date that had been earmarked for Federal reimbursement in the "07EPOI "
 reporting category. The fourth drawdown on December 22, 2010, was for actual City
 disbursements before that date that, quite arbitrarily, had been earmarked in the "07EP02"
 reporting category as costs to be allocated to the City's matching contribution.

Following the December 22, 20 I 0, drawdown of $1,40 1,627.66, the City should have corrected
its internal tracking system to properly designate all of the expenditures between June 9, 2009
and October 28, 20 I 0, as in the "07EPO I" reporting category on its general ledger. 33 All of those
expenditures were for allowable costs, all were already paid with City funds before the
drawdown date, and all were within the 75% Grant funding level. Thus, the City did not draw
down Grant fund s as an advance for disbursements not yet made. Rather, it incorrectly
designated expenditures in its internal reporting categories as not to be reimbursed that de facIO
had already been reimbursed.

The City has put in place procedures to avoid this internal tracking error in the future. Personnel
in the Comptroller'S Office who are charged with reviewing grant-related expenditures and
implementing drawdown requests now are required to determine that any request does not
include expenditures that have been designated as in the matching expenditures reporting
category. That process has been implemented through use of a revised form that requires
documentation of whether expenditures earmarked as matching have been included in the
drawdown amount. 34

Local Law Applicable to the City's Contract with Oracle
As noted in the Draft Report, "[tlhe majority of grant funds were paid to one COPS-approved,
sole-source vendor used to develop or improve CLEAR program software.,,3l The Draft Report
takes issue with the fact that the contract with this vendor, Oracle Corporation, expired as of
December 31, 20 I 0, and the City continued to make expenditures under it. According to the
Draft Report:

           While the grantee was not specifically required to notify COPS that thc approved
           sole source vendor was operating under an expired contract, a staff person with
           COPS stated that this activity would not have been approved if the COPS Office


33 Federal regulations and grant guidance materia ls require that grantees keep adequate accounting records, mainta in
effective internal controls, and submit accurate financi al reports. See, e.g., 28 C.F. R. §66.20(b)( I), (2), and (3) ;
COPS Manual at 43-44; OIP Guide at 18-19, 82-83; 2006 OI P Guide at 29-31, 10 1-103.

3"   C ity of Chicago Comptro ller's Office, DrawdownIBilling Request, attached hereto as Exhibit F.

35   See Draft Report at ii, 7 n.6.




                                                         - 24 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 9

             had been aware of the situation J6

 Aside from the vague discomfort of one unidentified COPS staff person, however, the Draft
 Report fai ls to identify any Federal statutes, re~ulations, or other guidance that would prohibit
 the City's payments under an expired contract,' and such payments are not prohibited by local
 law.

City departments generally are expected to keep all of their contracts current, either by seeking a
formal amendment to extend the contract, or by initiating the procurement process for a new
contract well in advance of the expiration date. However, payments made for services rendered
after the expiration of a contract are not unlawful. In fact, the Chicago Municipal Code
expressly authorizes the City's Comptroller to pay vouchers, whether there is a contract or not,
assuming that the voucher is correct and the price and quality of the services "are fair and jus!:"

             2-32-360 Investigation ofvouchered claims.

            Upon the presentation of any voucher for payment, the comptroller, in his
            discretion, before issuing a warrant therefor, is hereby authorized to cause to be
            made an inspection and examination of the article supplied and work and labor
            performed, whether by written contract or otherwise, as well as any items
            appearing in any such voucher, for the purpose of ascertaining that such items, or
            any of them, are correct and the price and quality of the labor or service
            performed and the price, quality and amount of goods, wares and merchandise
            represented by such voucher, are fair and just and in accordance with the terms of
            the written contract, if any there be, and that all requirements and obligations,
            expressed or implied, pertaining thereto, have been complied with. For any such
            examination and inspection, all departments, bureaus, boards and persons having
            supervision of work and labor or the purchasing of supplies or material to be paid
            for by the city, are hereby directed to render such assistance to the comptroller as
            may be necessary, to determine the price, quality and character of the work and
            labor performed, material supplied, or the faithful performance of contracts. If
            upon any such inspection and examination by the comptroller any irregularities
            are discovered, the comptroller shall report such irregularities to the city council.

Chicago Municipal Code, §2-32-060 (emphasis added). The only other requirement for payment
of a voucher is that it must specify the fund or appropriation to which the expenditure is to be
charged:


36   See id. at ii, 8.

37   All guidance from the COPS Office related to this program (including training materials, reference guides, and
the Code of Federal Regu lation itself) defers procurement to local contracting rules, which were followed
throughout the execution of thi s program. For example, Federal regu lations governing grants express ly defer to
local procurement standards. See 28 C. F.R. §66.36(b) ("Grantees . .. will use their own procurement procedures
which reflect applicable State and local laws and regu lations, prov ided that the procurements conform to app licable
Federal law and the standards identified in this sect ion.").




                                                       - 25 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 10

           2-32-3S0 Warrants, checks and electronic funds transfers - Form and signature.

           (a)     The mayor shall sign all warrants drawn upon the treasurer; and warrants
           shall be countersigned by the comptroller. Each warrant shall state the particular
           fond or appropriation to which the same is chargeable and the person to whom
            payable. No money shall be paid otherwise than upon warrants so drawn, except
           as provided otherwise in subsection (b).

           (b)     Notwithstanding any provision of this Code to the contrary, whenever the
           payment of city funds is required or authorized by warrant drawn upon the
           treasurer, signed by the mayor and countersigned by the comptroller, such
           payment instead may be made by an electronic funds transfer or by a check that is
           drawn upon the appropriate city depository. The check shall be signed by the
           mayor and countersigned by the comptroller.

Chicago Municipal Code, §2-32-0S0 (emphasis added).

The City could have issued written guidance outlining the circumstances under which the
Comptroller will exercise his or her authority under Section 2-32-060, as a matter of policy, to
pay invoices under expired contracts, for example, by prohibiting or restricting such payments.
However, no such written policies have been issued to departments prohibiting or restricting the
practice. Thus, as noted in the Draft Report,]8 it was not unusual for City departments to
encumber City funds under a contract that was set to expire, in order to allow the expenditure of
those contract funds after expiration of the contract."

Furthermore, the City's contract with Oracle itself contemplates the survival of terms and
conditions of the agreement "which should reasonably survive:"

           2S .11 Survival. The terms and conditions of this agreement which should
           reasonably survive the expiration or termination of this Agreement shall survive
           the expiration or termination of this Agreement for any reason, including
           Article V (Payment and Payment Terms) .. 40

31   See Draft Report at 8.

39   According to the Draft Report, an unidentified City official stated that the Mayor's Office had informed City
departments "that it was no longer an acceptable practice to encumber funds and make payments on expired
contracts." Id at 8. At the time of the encumbrance in December 20 10, no policies prohibiting the practice had
been formalized and issued either in writing or orally. Moreover, even as of the present, no written policies have
been issued prohibiting or restricting the practice; however, at some point after June 2011 , the City's Department of
Procurement Serv ices began advising City departments that they should be vigilant in keeping all of the ir contracts
current and avoid the practice of continuing services and payments under exp ired contracts. In any event, the issue
here is whether payments on expired contracts are prohibited by local law, and, as shown above, such payments are
expressly authorized in the Chicago Municipal Code.

40  The City's Contract with Orac le Corporation is avai lable on the City's Department of Procurement Services
webs ite accessible at www.cityofchicago.orgor through th is link:
http://ecm.c itvofchicago.orgJeSMARTContractslserviceldpsweb/ViewDPSWeb.zul




                                                       - 26 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page II


 Although the list of tenns and conditions which survive the expiration of the contract is not
 intended to be exhaustive, one of the articles that is expressly designated as surviving beyond the
 expiration date is the entire article pertaining to "Payment and Payment Tenns." That Article
 addresses what fees shall be payable, as well as how they shall be paid. Thus, the contract itself
 explicitly allows the City to make payments after the expiration of the contract. The City could
 have provided in its contract with Oracle that no provisions would survive the expiration of the
 contract, but it specifically provided otherwise.

 Here, prior to the expiration of the contract, the City issued its final "Blanket Release" to Oracle
 Corporation on December 21, 2010. As shown on the attached summary,'l the City issued
 "Blanket Releases" throughout the life of the project through December 20 I 0, that served to
 encumber, or set aside, City general funds to pay the project costs initially, which were then
 reimbursed periodically with Grant funds. Thus, the Blanket Release issued on December 21,
 2010, was intended to encumber the final $265,652.87 of the total project cost of $7,884,960. 42

 The City does not "encumber" or "release" Federal grant funds that are drawn down, and it did
 not do so here. Therefore, the statement in the Draft Report that the $1,40 I ,628 drawdown "was
                                                                                     43
 made in order to encumber funds against a contract" that was set to expire               is incorrect. The
 $1,40 I,628 reimbursement drawdown is a completely separate matter from any releases or
 encumbrances of City general funds made in anticipation of the contract expiration date.

The "Blanket Release" issued December 21, 20 10, directed Oracle to " [f]umish the Stp'plies
andlor services below in confonnance with conditions set forth herein and your offer." 4 The
Release serves as authorization for the vendor "to furnish the specified supplies andlor services
in accordance wiih the tenns and conditions of the Blanket Agreement," and serves to encumber
the appropriate funds to pay for such supplies andlor services' s The Release further provides
that "[pJayment on this order will be made upon receipt of an original vendor invoice fonn
referencing this order and associated [rJeceipt(s)," and directs the vendor to submit the original
receipt to the City's Office of the Comptroller· 6 And, as shown above, payment for such
services was authorized by both the contract tenns and by the City Municipal Code, even after
expiration of the contract.




41     See Obligation Encumbrance Summary, attached hereto as Exhib it G.

42     See id.

43     See Draft Report at 7.

,,<4   See Blanket Release dated December 2 1, 2010, attached hereto at Exhibit H.

<IS    Id.

46     Id.




                                                          - 27 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 12

 DRAFT AUDIT REPORT RECOMMENDATIONS

 Recommendation #1
 Confirm that the city of Chicago has complied with GASB 51 on the capitalization of intangible
 assets relating to the CLEAR Project.

 City Response
 The City agrees with this Recommendation. As stated in the Draft Report,47 Government
 Accounting Standards Board Statement Number 51 ("GASB 51") "requires [that] intangible
 assets, such as software purchases, be capitalized in the same manner as the grantee capitalizes
 tangible assets in its financial statements." Thus, such intangible assets should be classified as
 capital assets, and not expensed:'

 Here, the City expensed the software development and improvements, as well as the connectivity
 improvements to enhance the CLEAR system, rather than capitalizing them" As also noted in
 the Draft Report," in response to the OIG auditors' inquiries, the City began taking corrective
 action in March 2012 to properly capitalize these intangible assets.

The need to reclassify the intangible assets reiating to this Grant is part of a much larger City
effort to properly classify assets for all City departments. In order to comply with GASB 51 on a
city-wide basis, the City distributed a GASB 51 survey to all City departments,Sl and is in the
process of ensuring the necessary follow-up on that survey. The City intends to comply with
GASB 51 on a city-wide basis, including the assets implemented by the COPS Grant, for the
2012 fiscal year-end financial statements.

Recommendation #2
Require the grantee to implement procedures to ensure that grant drawdowns are not in excess of
immediate grant needs.

City Response
The City agrees in part, and disagrees in part, with this Recommendation. The City
acknowledges that drawdowns of Grant funds should only be made to reimburse an agency for
allowable grant-related expenditures already made or as advances that should be disbursed



47   See Draft Report at 6.

4B   See id. at iii, 4, 6,

49   See id.

50   See id. at iii, 6.

51 City of Chicago Department of Finance, Office of the Comptroller, Survey for GASS Statement No. 51,
Accounting and Reporting for Intangible Assets, attached hereto as Exhibit I.




                                                - 28 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 13

 within ten days." Here, as explained in detail above, the City never sought any advances, but
 paid all vendor invoices initially with City general funds, and then periodically sought
 reimbursement only for actual expenditures already made. At no time during the course of the
 Grant were Federal funds drawn for expenditures that did not occur prior to such draw.

This holds true even for the fourth drawdown on December 22, 20 I 0, which is the drawdown at
issue in the Draft Report. That drawdown was for $1 ,401 ,627.66, exactly the amount of the
umeimbursed actual expenditures the City had already made before that date. As of December
22, 2010, the City had actually disbursed out of City general funds a total of $5,874,792.88 for
approved project costs, which corresponds exactly to the total cumulative Grant funds the City
had drawn down as of that date in four draws. Thus, with the fourth draw, the City did not draw
down any more Grant funds than it had already expended of its own money.

The Draft Report's statements that the December 22, 2010, drawdown was made "in order to
encumber funds on the contract that expired on December 31, 20 10 even though there were no
corresponding invoices to be paid"S3 is not correct for several reasons. First, while it is true that
the City issued a Blanket Release in order to encumber Cily general funds before the expiration
of the Oracle contract, we are not aware of any similar need to "encumber" Grant funds by
drawing them down early.

Second, the staff person from the Comptroller's Office who initiated the fourth drawdown on
December 22,2010, confirmed that he made that drawdown because there were expenditures in
the amount of $1,401,627.66 for which the City had not yet sought Federal reimbursement.
Third, this staff person's explanation makes sense because the drawdown amount, in fact,
corresponds exactly with the amount of umeimbursed expenditures as of that date; it does not
correspond with the remaining amount of Grant funds as of that date, which it would if the
purpose somehow were to "encumber" the Grant funds. Fourth, none of the drawdowns of Grant
funds were made to pay corresponding invoices, because the City paid all invoices initially out of
City funds and then sought reimbursement. 54

Although the City has demonstrated that there were no Federal drawdowns without
corresponding expenditures, it acknowledges that following the December 22, 20 I0, drawdown,
the City should have corrected its internal tracking system to properly designate all of the
expenditures between June 9, 2009 and October 28, 2010, as in the "07EPOI " reporting category
on its general ledger. Instead, it incorrectly left expenditures in its internal reporting categories
as not to be reimbursed that de f acto had already been reimbursed. Thus, even though, as a
factual matter, the December 22, 2010, drawdown was made to reimburse the City's

" 28 C.F.R. §66.20(b)(7) (Cash management); 28 C.F. R. §66.2 t(b), (c), (d) (Paymen~ Basic standard, Advances,
Reimbursement); COPS Manual at 37; OJP Guide at 27; 2006 OJP Guide at 37-38 (same) .

51
.    See Draft Report at ii-iii, 7.

54 Likewise, the statement that the $1 ,401,627 .66 drawdown "was not supported by any expend iture records for that
time period," Draft Report at 6, is wrong. As shown on the Grant Expenditures Chart, that amount was supported by
specific, documented payments by the City. See Exhibit B.




                                                      - 29 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 14

 expenditures made before that date, the City's records do not accurately reflect that fact.

 As noted above, the City has already taken sufficient corrective action to avoid this kind of
 mistake from happening in the future, by requiring personnel in the Comptroller's Office who
 are charged with implementing drawdown requests to use a revised form that requires
 documentation that expenditures earmarked as matching have not been included in the
 drawdown amount. 55

 Additionally, the City proposes the additional corrective action of revising its internal general
 accounting ledgers, so that all of the expenditures that supported the December 22, 20 I 0,
 drawdown are properly designated in the "07EPOI" reporting category, that is, the category
 subject to Federal reimbursement. Likewise, since this internal accounting error carried over
into the Federal Financial Reports ("FFRs"), the City proposes submitting corrected FFRs that
accurately reflect the Federal and matching share contributions."

Recommendation #3
Remedy the $1,039,799 in unallowable questioned costs for expenditures made under an expired
contract.

City Response
The City disagrees with this Recommendation. The Draft Audit lists as "Questioned Costs" the
amount of $1 ,40 1,628, which is the amount of the December 22, 2010 drawdown. 57 According
to the Draft Report:

           [qJuestioned costs are expenditures that do not comply with legal, regulatory, or
           contractual requirements, or are not supported by adequate documentation at the
           time of the audit, or are UImecessary or unreasonable. Questioned costs may be
           remedied by offset, waiver, recovery of funds, or the provision of supporting
           documentation. 58

Of this total listed amount, the Draft Report alleges that any amounts that were spent after the
Oracle contract expired on December 31, 2010 ($1,039,799 at the time of the audit) are
questioned costs because they are "unallowable. ,,59 The Draft Report fails to explain why costs
~5 See Exhibit F,

56 The City recognizes that this correction would result in more heavily front-loaded Federally-funded project
expenditures, but, as noted above, there is no requirement that matching contributions be applied at the exact time or
in proportion to the obligation of the Federal funds, so long as the full matching share is obligated by the end of the
award period. See COPS Manual at 47; OJP Guide at 35; 2006 OJP Guide at 48.

57   Draft Report at 16.

58 [d.; see also Office of Management and Budget ("OMB") Circular No. A-I33, Audits of States, Local
Governments, and Non-Profit Organizations at § 105 (definition of "questioned costs").

59   See Draft Report at 8, 13,16.




                                                        - 30 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 15

 expended under an expired contract are "unallowable," except to say that an unidentified COPS
 staff person "stated that this activity would not have been approved if the COPS Office had been
 aware of the situation.,,6o The Draft Report states that the costs paid under the expired contract
 should be "remedied," but does not specify which of the remedial options that is listed should be
 applied. 6J

 As demonstrated above, the entire amount of the December 22, 2010, drawdown was a
 reimbursement, supported by actual expenditures that the City made between June 9, 2009 and
 October 28, 2010. Thus, this amount was spent before the 2010 year-end expiration of the
 Oracle contract. The corrective action the City proposes in response to Recommendation #2 will
 correct the City's internal records and corresponding reports to properly reflect this fact. If so,
 then the overwhelming majority of expenditures made after the expiration of the contract will be
 attributable to the City'S matching contribution." In any event, however, the City submits that
 the payment of expenditures under an expired contract does not render such costs "unallowable."

Under Part 66 of the Federal regulations, "[a]pplicable OMB cost principles, agency program
regulations, and the terms of grant and subgrant agreements will be followed in determining the
reasonableness, allowability, and allocability of costs.,,6] The COPS Manual defines "allowable
costs" as "expenses that may be funded by this grant program," as outlined in the particular
Financial Clearance Memorandum that is included in the grant award package.'4 Here, there are
no allegations that the costs expended were outside of the costs outlined in the Grant's Financial
Clearance Memorandum.

As for the "applicable cost principles" for determining "allowable costs" for grants made to local
governments, they are contained in OMB Circular A-87 (relocated to ·2 C.F.R. Part 225), "Cost
Principles for State, Local and Indian Tribal Governments."" Appendix A to Part 225 contains
the principles for determining whether costs are allowable, and lists "factors affecting the
allowability of costS.,,66 The Draft Report fails to cite to any of the provisions of Part 225 to
support its determinations that costs spent under an expired contract are "unallowable." The
only factor listed that could be arguably applicable here is the requirement that costs "[b]e


60   [d. at ii, 8.

61   Id. at4, 13. 16.

62 As noted multiple times above, Federal regulations and guidance allow matching funds to be applied at any time
during the Grant period. See COPS Manual at 47; OJP Guide at 35; 2006 OJP Guide at 48.

OJ   28 C.F.R. §66.20(b)(5).

64   COPS Manual at 12,69; see also OJP Guide at 58; 2006 OJP Guide at 74.

6~ 28 C.F. R. §66.22(b) (listing OMB Circular A-87, which according to the OMS website has been "[r]elocated to 2
C.F.R., Part 225).

66   2 C.F.R. Part 225, Appendix A, Section C, Basic Guidelines.




                                                       - 31 ­
 Ms. Carol S. Taraszka
 January 31 , 2013
 Page 16

 authorized or not prohibited under State or local laws or regulations.""

 As explained above, however, the contract itself provides for the survival of all terms and
 conditions of the contract "which should reasonably survive," including the entire article
 pertaining to payment and payment terms. 68 Additionally, the Chicago Municipal Code
 expressly authorizes the City's Comptroller to pay vouchers, whether there is a contract or not,
 assuming that the voucher is correct and the price and quality of the services "are fai r and just."
 Chicago Municipal Code, §2-32-060. Moreover, there is no prohibition on City departments
 issuing Blanket Releases before the expiration of a contract to encumber funds to be spent for
 services rendered after expiration of the contract. Thus, there is no basis for the finding that any
 of the expenditures made for services rendered under the expired contract were "unallowable."

 Recommendation #4
 Remedy the $361,829 in unsupported costs resulting from an excessive drawdown of grant
 funds.

City Response
The City disagrees with this Recommendation. According to the Draft Report, as of the date of
the audit, "$36 1,829 still remained on hand from the above described excess drawdown, and this
portion of the questioned costs should be returned to COPS and drawn down as expended. ,,69 As
demonstrated above, however, the entire December 22, 20 I0 drawdown, including this sum, was
a reimbursement, supported by the expenditures the City made between June 9, 2009 and
October 28, 2010 70 Thus, if the City's proposed corrective action for Recommendation #2 is
accepted, this amount will be accurately reflected in the City records as a reimbursement.

Recommendation #5
Remedy the funds to better use fro m interest earned on the excessive advance drawdown of
COPS funds.

City Response
The City disagrees with this Recommendation. Federal regulations provide that "grantees and
subgrantees shall promptly, but at least quarterly, remit interest earned on advances to the
Federal agency," except that "[tlhe grantee or subgrantee may keep interest amounts up to $100
per year for administrative expenses."" The Draft Report argues that the City received an
advance in the amount of the December 22, 2010 drawdown, for which it should calculate and
remit the interest. 72

61   ld.

68   See note 38, supra.
69   Draft Report at iii; see also id. at 4, 8, 13, and 16.

10   See Exh ibit A.

71   28 C. F.R. §66.21 (i); see also COPS M anual at 39; OJP Guide at 27; 2006 OJP Guide at 38.

12   Draft Report at ii i, 4, 8.




                                                              - 32 ­
 Ms. Carol S. Taraszka
 January 31, 2013
 Page 17


 As shown above, the City did not seek any advances, but only requested drawdowns to
 reimburse actual expenditures. Thus, the City does not believe that it is required to calculate and
 remit any interest to the COPS Office. If the City's proposed corrective action relating to
 Recommendation #2 is acceptable, the City' s internal accounting records and FFRs will
 accurately reflect the December 22, 2010 drawdown as a reimbursement. Thus, there will be no
 advance and, therefore, no interest owed.7]

 CONCLUSION

The City of Chicago Department of Police has enjoyed a successful partnership with the COPS
Office since its beginning in the mid-I 990s, and has depended upon COPS technology funding
since 2001. This partnership has resulted in the creation and continued expansion of one of the
most successful technology platforms in policing, which has been featured in numerous
publications, including a publication from the COPS Office itself entitled "Policing Smarter
Through IT: Learning from Chicago's Citizen and Law Enforcement Analysis and Reporting
(CLEAR) System,"" and at workshops around the country. Throughout this collaboration, the
CPD and other involved City departments have strived to ensure that all activities comply with
grant and program requirements, especially since so many other agencies look to this program as
a national best practice, and we understand that the CLEAR System has served as a model for
many other jurisdictions.

We would welcome the opportunity to meet to discuss the Draft Report and this Response at
your convenience. Please let us know if there is any further information and/or documentation
that we can provide.

Since ely yours,


                      t.~
Stephen R. Patton
Corporation Counsel


cc:        Ms. Lashon M. Hilliard
           Management Analyst
           COPS Audit Liaison Division




73    If the City 's proposed corrective action is not accepted, however, the City' s internal accounting records will
continue to .reflect the December 22. 2010, drawdown as if it were an advance. If so, the City has calculated the
interest on the entire drawdown amount from the date of the drawdown untillhe present to be $18,054.00. See City
of Chicago Comptroller'S Offi ce Interest Calculation, attached hereto at Exhibit J.

74   htlp:/fwww.ipr. northw~srern.edll/publica/ions/Dolicing papersiCOPS. [ong.pdf




                                                         - 33 ­
Ms. Carol S. Taraszka
January 31, 2013
Page 18

       Garry F. McCarthy, Superintendent
       City of Chicago Police Department

       Jamie L. Rhee, Chief Procurement Officer
       City of Chicago Department of Procurement Services

       Amer Ahmad, Comptroller
       City of Chicago Department of Finance

       Alexandra Holt, Director
       City of Chicago Office of Budget and Management




                                           - 34 ­
                                                                                       APPENDIX IV


     U.S. DEPARTMENT OF JUSTICE RESPONSE


             u.s. DEPARTMENT OF J USTICE
             OFF I CE OF COMMUN ITY ORIENTED POLI C I NG SERV I CES

             Gum Opcrations Dircctoutc/ Audit Li:lison   Divi ~ion
                                                                                    COPS
             145 N Strcct, N.E., W. shington. DC 20530
                                  ..


                                      MEMORA NDUM

Via E-Mail and U.S. Mail
To:          Carol S. Taraszka
             Regional Audit Manager
             Office of the InspeclOr General
             Chicago Regional Audit mce

From :        Lashon M.   HiIli~7\i~I:t'
              Management Anal yst
              COPS Audit Liaison Division

Date:          February 11. 2013

Subject:      Response to the Draft Audi t Report for the COPS Technology Program Grant to
              he eity of Chicago and Chicago Police Department, Chicago, Illinois.
              COPS Technology Grant 2007CKWXOOJ4

       This memorandum is in response to yo ur draft audit report, dated December 18, 2012. for
the Chicago Po licc Department (CPO), Chicago, I L For ease ofreview, each audit
recommcndation is staled in bold and underlined, fo llowed by COPS' respt)"sc to the
recommendation.

Recommendat ion I : C onfirm that the city or Chicago has complied witb GAS H 51 on the
u pitalization or intangible assets relating to the CLEAR project.

      COPS concurs and C PO agrees that the city of Chicago comply with GASB 5 I on the
capitalization of intangible assets re lating to the CLEAR project.

Planned Action(s):
      After review of your report and the grantee's response, C PO has distri buted the GASB 51
survey city-wide and is in the process of ensuring the necessary follow-up on that survey
including the assets implemented by the COPS grant lor the 2012 liscal year-end financial
Statements.
Request

   Based on the discussion and planned actions, COPS requests resolu tion of
Recommendation I.




ADVANCING PUBLI C SAFE TY THROUG H COMMUN I TY PO LI CING
                                             *


                                           - 35 ­
Carol S. Taraszka, Rcgional Audi t Managcr. Chicago Regional Audit Office
Fcbruary 11. 20 13
I'a i! ~   j2

Retommendalion 2: Require the &,rantee 10 implement proced urH to ens ure tbat grant
dra"'downs are not in euess of immediate grant n eed ~.

     COPS concurs the city of Chicago should have a mechanism in place to ensure thai grant
drawdo ....ns arc nol in excess of immediate grant ncOOs.

Planned AClion(s):

      Aftcr review ofyouT report and the granlee's response, COPS is wo rking with the grantee
to provide supporting documentation to demonstratc that procedUres are in places to ensure Ihal
grant drawdowns are not in excess of immediate grant needs.

Request

     Based on the discussion and planned actions, COPS requests resolution of recommendation
2.

Resommendation 3: Remedv the 51,039,799 in un allowa hle gue~ti oned costs (or
expenditu res made under an expired conlnct.

        COPS concurs that the city of Chicago should request rei mbursement fo r expenditures
that are allowable, allocable, and consistent with grant (enns and conditions.

Planned Aetion(s):

       After review of your report and the grantce's response, COPS will work \.\ith the grantee
to remedy Ihe questioned costs.

RequHt

           Based on the planned actions, COPS requests resolution of recommendation 3.

Recommendation 4: Remedy the $361,829 in uns unportcd cost~ n~su ltin g from an excessive
drawdow n of grant fund~.

        COPS concurs that the city of Chicago should request reimbursement for grant-funded
eXpi:ndi tures thaI are allowable, allocable, and consistcnt with grant tenDs and conditions.

Planned Aetion(s):

       After review of your report and the granlee's responsc, COPS will work with the grantee
to address the $36 1,829 identifi ed in the draft audit report and 10 remedy lhose costs.




                                             - 36 ­
Carol S. TataS'"OOl, Regional Audit Manager, Chicago Regional Audit Office
February 11 , 2013
ra ge 1  3


      Based on the planned actions, COPS requests resolution of recommendation 4.




      Planned Ac tion(s):

       After review of your report and the grantee's response, COPS will work with the grantee
to remedy the FTBU from interest earned on the excessive drawdown of COPS funds.

Request

      Based on the planned actions, COPS requests resolution of recommendation 5.

    The COPS Office would like to thank you for the opportunity to review and respond to the
draft audit report. If you have any questions, please contact me at (202) 51 4·6563.

cc:      Carol S. Taraskza (copy provided cl«tronically)
         Regional Audit Manager
         Office of the Inspector General
         Chicago Regional Audit Office

         Louise H. Duhamel. Ph. D (copy provided e1«tronieally)
         Acting Assistant Director. Audit Liaison Group
         Internal Review and Evaluatio n Office
         Justice Management Division

         Marcia O. Samuels-Campbell (copy provided electronically)
         Ac ting Deputy Director for Operations
         Aud it Liaison Division
         Office ofCommuruty Oriented Policing Services (COPS)

         Aud it File Copy
         ORI: ILCPDOO




                                                                                    ,
                                                                                    ..


                                            - 37 ­
                                                                          APPENDIX V

                 OFFICE OF THE INSPECTOR GENERAL

                ANALYSIS AND SUMMARY OF ACTIONS

                  NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Office of
Community Oriented Policing Services (COPS) and the city of Chicago Police
Department (Chicago PD). The city of Chicago’s response is incorporated in
Appendix III of this final report, and the COPS Office’s response is
incorporated in Appendix IV. 13

      The city of Chicago (City) provided a detailed response to the draft
report. The majority of the City’s response addressed recommendation
numbers 2 through 5, which are all related. These recommendations relate
to the ramifications of the Chicago PD’s December 23, 2010, drawdown of
more than $1.4 million in grant funds.

      We have reviewed and analyzed the City’s response and noted that the
City acknowledged “the administration of this grant was not perfect,” “the
City acknowledges that there is room for improvement,” and that our audit
“illuminated several weaknesses.” However, the City also stated that those
weaknesses did not indicate violations of any laws, regulations, guidance, or
grant conditions. We agree that our audit did not reveal any violations of
law. However, our audit did reveal significant deficiencies in the City’s
administration of its COPS Technology Program Grant, as detailed in our
report and this Appendix.

       Although the City correctly quoted our draft report as stating that the
grantee’s expenditures “were properly reviewed, approved, classified,
supported, and charged to the grant,” this was based upon the grant
accounting records provided by the City during our audit. This statement
speaks to the fact that the City’s documentation supporting the reviewed
grant expenditures substantiated the existence of supervisory review and
approval, was adequate to evidence the payment of funds, and corroborated
the transactions as entered in the accounting records at the time of our
audit. In addition, the expenditures were in line with the items approved by
the COPS Office. However, this sentence from our report and our other
positive findings, including the grantee’s adherence to the matching
requirement and its efforts to meet the goals of the grant, should not be
taken out of context to suggest that our report does not identity significant

       13
         We did not include the attachments related to the grantee’s response, detailed in
Appendix III, due to their volume and technical nature.


                                          - 38 ­
issues with the grantee’s administration of grant funds. We included this
information in an effort to provide a fair and balanced report. Further, these
statements were based upon the conclusions we reached after reviewing the
grant-related documents and information provided to us prior to the
completion of our draft report. However, the City’s response to the draft
report indicated that the grant accounting records provided to us contained
material posting errors. As a result of this new information, the quoted
report statement above may no longer be fully applicable. We made
clarifying changes to our final report to indicate the implications of this new
information.

      As noted in our report, the grantee provided us with its grant
accounting records dated June 2012 and those records indicated that the
cumulative grant expenditures at the time of the aforementioned
$1.4 million drawdown totaled $4,473,165. Including the December 23,
2010, drawdown, the Chicago PD’s cumulative drawdowns at that time
equaled $5,874,793. Over the next 18 months, the Chicago PD continued to
post additional expenditures to the grant account. This activity is reflected
in our report in Table 2.

       Throughout the audit and during a formal exit conference, we
discussed this information with various high-level Chicago PD and City
officials. These officials agreed with the information we presented, which
was obtained from the Chicago PD’s official accounting records. As noted in
our report, when we presented this information during our audit, officials
informed us that the $1.4 million drawdown was taken in an effort to
encumber the grant funds against a contract that was expiring at the end of
December 2010. We explained to the City at our exit conference the
implications of that explanation, which was that federal funds were being
drawn without any corresponding expenditures in violation of COPS
Technology Program rules. 14

      However, the City’s response provided an entirely different explanation
for the December 2010 drawdown and stated that its grant-related financial
records and provided information associated with the December 2010
drawdown were incorrect. 15 In short, the City’s response asserted that there

       14
          The COPS Technology Program rules states that recipients should time drawdown
requests to ensure that federal cash on hand is the minimum needed to pay for actual or
anticipated costs within 10 days.
       15
          In its response, the City said that the statement in our report that the drawdown
was made to encumber funds against a contract that was set to expire is incorrect. We
were provided this explanation during multiple meetings attended by several high-level
grantee officials.


                                          - 39 ­
was an error in its accounting records originally provided to the OIG and that
adjusting its accounting records will remedy our findings related to the
December 2010 drawdown. Specifically, according to the City’s response,
the December 2010 drawdown “was a reimbursement, supported by actual
expenditures that the City made” prior to the expiration of the contract. The
response further explained that staff in the City Comptroller’s Office initiating
the reimbursement requests failed to notice that these grant expenditures
had been flagged with an internal reporting category designation as City-
matching contributions for which no reimbursements would be sought. As a
result, the City’s response indicated that the accounting records we received
contained material posting errors and that certain grant-related expenditures
were incorrectly recorded as Chicago PD-paid matching costs. 16 The City’s
response also proposed to repost these transactions as federal expenditures,
but indicated that it has not yet taken action to make corrections to its grant
accounting records. It is important to note that such an action is wholly
within the grantee’s realm of responsibility. If the City is certain that
transactions were erroneously posted, it has a responsibility to take steps to
correct the errors and ensure that its accounting records are an accurate
representation of its financial activity. Because any accounting record
adjustments may affect the conclusions in our audit report if substantiated,
after receiving the City’s response we made multiple inquiries to the City
about any actions that the City had taken. On July 12, 2013, we received a
response from the City that did not clearly indicate whether or when
corrections may have been made. Further, we requested from the City but
were not provided with any revised ledgers as evidence of any
adjustments. Because the only valid documentation we received from the
City substantiates the information in our report, we have not modified our
findings.

       We believe that it is important to reiterate that we discussed our
findings with numerous grantee officials during our audit. The explanation
provided within the City’s response was not mentioned at any time. In
addition, if this explanation is correct, it represents a significant deficiency in
the City’s internal control structure. For such an event to have occurred, the
City’s internal control system would have failed both to prevent the
erroneous postings and to detect the errors prior to our audit. In addition,
the transactions in question began in 2009, continued into 2012, and the
City apparently did not identify the alleged errors until responding to our
draft report in January 2013, which indicates that the internal control
weakness existed for an extended period of time. The implications of the



      16
           The grant award required that the grantee make a 25 percent matching cash
contribution.


                                         - 40 ­
City’s new information on our findings and recommendations are discussed
below.

       In its response, the COPS Office concurred with our findings and stated
that it would work with the grantee to address the recommendations. The
following provides the OIG analysis of the responses and summary of actions
necessary to close the report.

Recommendation Number

1.	   Resolved. Both the City and the COPS Office concurred with our
      recommendation to confirm that the city of Chicago complies with
      GASB 51 on the capitalization of intangible assets relating to the
      CLEAR project. According to its response, the City intends to comply
      with GASB 51 on a city-wide basis and is in the process of conducting
      a city-wide survey to identify all intangible assets.

      This recommendation can be closed when we receive a copy of the
      City’s 2012 fiscal year-end statements showing the capitalization of
      intangible assets, as well as a copy of the procedures implemented to
      ensure future intangible assets are also properly classified under
      GASB 51.

2.	   Resolved. In its response, the City both agreed and disagreed with
      our recommendation to require the grantee to implement procedures
      to ensure that grant drawdowns are not in excess of immediate grant
      needs. The City agreed that drawdown of grant funds should only be
      made to reimburse allowable grant-related expenses or as advances to
      be distributed within 10 days. The City also stated that “at no time
      during the course of the grant were federal funds drawn for
      expenditures that did not occur prior to such draw.” Based upon our
      review of the City’s official grant accounting records that we used in
      preparing our draft report, we disagree. In order for us to agree with
      the City’s statement, we would have to conclude that the accounting
      records we were provided were erroneous. While the City’s response
      to our draft report asserted that the records were erroneous, we were
      not provided any documentation to substantiate the City’s claim and
      the only documentation we were provided, including the official
      accounting records as of June 2012, conflicts with the City’s
      statements in its response to the draft report. To ensure that future
      federal funds are not put at risk by possible overdraws as represented
      by the accounting records we were provided and without
      documentation to prove that an overdraw did not occur, we hold to our
      recommendation that the COPS Office ensure that the City establishes


                                    - 41 ­
      procedures to ensure drawdowns are not in excess of immediate grant
      needs.

      The City stated that it has put in place procedures and implemented a
      revised form to avoid internal tracking errors in the future. However,
      the City’s response did not address the deficiency in its procedures
      that allowed for this error to: (a) occur in the first place, (b) not be
      detected through routine review, and (c) result in the drawdown of
      federal funds that, based upon the records as prepared, were not
      required for immediate needs. Further, the City’s response indicated
      that its decisions to identify certain grant costs as either matching
      costs or federal expenditures was done “quite arbitrarily” following a
      Department of Justice monitoring visit in October 2009, which
      identified that the grantee had not yet recorded any matching
      expenditures. We note that grant accounting should not be done
      arbitrarily, but should be done based on the intent of the award, grant
      terms and conditions, sound business practices, and actual grant
      activities that are supported by concurrent documentation. An
      arbitrary accounting of grant activities results in failures of internal
      controls such as that which the City has described may have occurred.

      The COPS Office concurred with our recommendation and stated in its
      response that it is working with the grantee to provide supporting
      documentation to demonstrate that procedures are in place to ensure
      that grant drawdowns are not in excess of immediate grant needs.
      This recommendation can be closed when we are provided evidence
      that the grantee has implemented procedures to ensure that it does
      not request a grant drawdown when its accounting records do not
      indicate that one is needed and therefore such a drawdown would be
      in excess of immediate needs.

3.	   Resolved. In its response to the draft report, the City disagreed with
      our recommendation to remedy the $1,039,799 in federal grant funds
      used for expenditures made under an expired contract. According to
      its response, the City was authorized to make payment to the
      contractor after the contract expired according to Chicago Municipal
      Code and the contract terms. The City stated that “payments made
      for services rendered after the expiration of a contract are not
      unlawful.” In addition, the City’s response included a citation from
      Chicago Municipal Code 2-32-360, which the City contended “expressly
      authorizes the City’s Comptroller to pay vouchers, whether there is a
      contract or not,” as long as the claim is correct, fair, and just.




                                    - 42 ­
We disagree with the City’s implication that our report indicates that
grant expenditures made against the expired contract were unlawful.
Our report provides specific details about the City’s drawdowns and
related expenditures. In addition, our report includes our conclusion,
based upon the City’s official accounting records, that when the City
took its December 2010 drawdown, it had not yet incurred federal
grant-funded expenditures equal to the amount of the drawdown. Our
report also provides information on the expiration of the contract in
December 2010 and the City’s grant expenditures against that contract
over the next 18 months. Finally, our report recounts the explanation
that City officials gave us regarding the purpose and timing of the
drawdown and the assertion that while the practice would not be
allowed under the current administration, previous leadership allowed
City employees to make expenditures against expired contracts. We
consider the totality of these circumstances highly unusual and, in our
judgment, warrant the questioning of these costs in accordance with
the provisions in the Inspector General Act of 1978. The Inspector
General Act of 1978, as amended, defines a questioned cost as a cost
that is questioned by the OIG because of: (a) an alleged violation of a
provision of a law, regulation, contract, grant, cooperative agreement,
or other agreement or document governing the expenditure of funds;
(b) a finding that, at the time of the audit, such cost is not supported
by adequate documentation; or (c) a finding that the expenditure of
funds for the intended purpose is unnecessary or unreasonable. Our
report, however, does not indicate that the use of the expired contract
was an illegal act.

As clearly noted in the City’s response to our draft report, “City
departments are generally expected to keep all of their contracts
current, either by seeking a formal amendment to extend the contract,
or by initiating the procurement process for a new contract well in
advance of the expiration date.” Moreover, the City’s response also
stated “…at some point after June 2011, the City’s Department of
Procurement Services began advising City departments that they
should be vigilant in keeping all of their contracts current and avoid
the practice of continuing services and payments under expired
contracts.” As a result, it appears the City recognized the risk of
expending funds on expired contracts and has issued guidance to help
address that risk. However, we note the following particular risks
posed by charging federal grant costs to an expired contract:

      •	 28 CFR 66.36 states that grantees are required to maintain a
         contract administration system that ensures that contractors
         perform in accordance with the terms, conditions, and


                              - 43 ­
   specifications of their contracts or purchase orders. In its
   response, the City pointed to the contract’s survival
   provisions, which the City asserted allows the City to make
   payments after the expiration of the contract. However, the
   survival clause does not include all of the terms of the
   contract. Because of this, the City could not ensure
   compliance with 28 CFR 66.36 because they could not ensure
   that all aspects of the contractor’s performance would be in
   accordance with the contract.

•	 The contract had a provision entitled “Agreement Extension
   Option,” which stated that, by providing notice to the vendor,
   the agreement could be extended for an additional year. We
   were not provided with any documentation indicating that the
   City formally exercised this option or that the City provided
   the required notice to the vendor. Although the City
   continued to use the contract after its expiration, it did not
   take steps to document this significant action through
   contract extension or modification. In fact, the City did not
   execute any further contracting action related to this
   agreement until May 2012, a full 17 months after the original
   expiration. We believe that the contract’s “Agreement
   Extension Option” indicated that any extension of the
   agreement for an extended period should have been done in a
   formal manner.

•	 2 CFR 225 states that in order for a cost to be allowable, it
   must, among other requirements, be reasonable. The
   regulation further states that a cost is reasonable if it does
   not exceed that which would be incurred by a prudent person
   under the circumstances prevailing at the time the decision
   was made to incur the cost. One of the criteria for
   determining reasonableness is whether the cost adheres to
   sound business practices. In our opinion, a prudent person
   practicing sound business practices would not incur expenses
   on an expired contract because doing so would call into
   question the enforceability of the other contract terms on that
   work.

•	 It is also important to note that the contract at issue was a
   sole source contract, the original use of which was approved
   by the COPS Office, as required. Sole source contracts are
   expected to be used rarely because such arrangements do not
   allow for free and open competition. Contract competition is


                        - 44 ­
         an important control for government expenditures at all levels
         and helps ensure that taxpayer dollars are expended in the
         most efficient and economical way possible. By using the
         contract past its expiration date, the City effectively continued
         to operate under sole source circumstances without involving
         the COPS Office in that decision.

In sum, the City’s response clearly stated that City employees are now
instructed not to continue services and payments on expired contracts,
yet the response also indicates that it disagreed with our finding of
questioned costs associated with the City’s use of an expired contract.
Further, because the questioned costs were paid in support of the DOJ
grant project, these costs were within the scope of our audit
regardless of whether they were paid directly from federal grant funds
or the City’s matching requirement, which is in question as noted
above.

We continue to believe that it is appropriate to question as unallowable
grant-related expenses paid under an expired contract, particularly in
light of the information that we were provided during our audit,
namely that the drawdown was taken with the express purpose of
encumbering the funds against the contract because it was going to
expire. We believe this may have constituted a violation of the
contract terms related to period of performance and indicates a
significant deficiency in the City’s internal control structure. Because
the expiration date is a term of the contract and the practice of
expending funds against that contract after its expiration appears to
bypass that control, we believe it is an internal control weakness and
that the City should discontinue such practices on DOJ grant-funded
projects.

In its response, the City proposed to remedy this recommendation by
making adjustments to earlier transactions originally posted as
matching costs and re-categorizing those costs as federal
expenditures. As noted, this is a proposal; the City’s response
indicated that it had not yet taken the action to correct this alleged
error. After receiving the City’s response, we made multiple
subsequent inquiries to the City about any actions that the City had
taken. On July 12, 2013, we received a response from the City that
did not clearly indicate whether or when corrections may have been
made. Further, we requested from the City but were not provided with
any revised ledgers as evidence of any adjustments. As a result, we
have not modified the findings that we presented in our draft report.



                              - 45 ­
      The COPS Office concurred with our recommendation to remedy the
      $1,039,799 in unallowable questioned costs for expenditures made
      under an expired contract and stated that it will work with the grantee
      to remedy the $1,039,799 in questioned costs. We believe the COPS
      Office should coordinate with the grantee and determine whether it
      agrees that the proposed action is appropriate and proper for
      remedying the questioned costs.

      This recommendation can be closed when the COPS Office remedies
      the $1,039,799 in questioned costs in an appropriate manner.

4.	   Resolved. In its response to the draft report, the City disagreed with
      our recommendation to remedy $361,829 in unsupported costs
      associated with an excessive drawdown of federal grant funds. The
      City again referred to its position that the official accounting records
      provided to the auditors were incorrect, that it did not make an
      excessive drawdown of grant funds, and thus there were no
      unsupported costs resulting from unexpended funds totaling $361,829.
      While the City’s response asserted that the records were erroneous,
      we were not provided any documentation to substantiate the City’s
      claim and the only documentation we have been provided to date,
      including the official accounting records, conflicts with the City’s
      statements.

      According to the COPS Technology Program Grant Owner’s Manual, an
      award recipient must establish and maintain accounting systems and
      financial records to accurately account for the funds awarded and
      expended. Moreover, 28 CFR part 66.20 states that grantees must
      maintain records that adequately identify the source and application of
      funds provided for financially assisted activities. The City maintained
      records that accounted for its activities and provided those records to
      us during our audit. However, according to the City’s response, those
      records were erroneous. According to the City, its official accounting
      records appear to have misidentified the source and application funds
      used for certain grant expenditures. Specifically, the City stated in its
      response that, “even though…the December 22, 2010, drawdown was
      made to reimburse the City’s expenditures made before that date, the
      City’s records do not accurately reflect that fact.” As a result, the
      City’s records were not in compliance with the federal regulation
      requiring transactions to identify the source and application of funds.
      We were only able to audit the records we were provided by the City;
      we did not make any assumptions beyond the documentation we were
      given. We relied on the information contained within the City’s official
      records because our testing showed that it was consistent with the


                                    - 46 ­
      documentation and information we were provided during our audit
      fieldwork. In our discussions with the City regarding this issue during
      audit fieldwork, we were not provided with suggestion, information, or
      documentation that refuted the transactions’ original designation as
      matching costs.

      In its response, the City proposed to remedy this recommendation by
      making adjustments to earlier transactions originally posted as
      matching costs and re-categorizing those as federal expenditures. As
      noted, this was a proposal; the City has not yet provided us with
      documentation that it has taken any action to correct the alleged
      error.

      The COPS Office concurred with our recommendation to remedy the
      $361,829 in unsupported costs resulting from an excessive drawdown
      of grant funds and stated that the City should request reimbursement
      for grant-funded expenditures that are allowable, allocable, and
      consistent with grant terms and conditions. Additionally, the COPS
      Office stated that it will work with the City to remedy the $361,829 in
      questioned costs. We await the COPS Office’s evaluation and analysis
      of the City’s proposed remedy.

      This recommendation can be closed when the COPS Office remedies
      the $361,829 in questioned costs in an appropriate manner.

5.	   Resolved. In its response to the draft report, the City disagreed with
      our recommendation to remedy as funds to better use the interest
      earned on the excessive advance drawdown of COPS Office funds. The
      City stated in its response that based upon its assertion that certain
      grant-related expenditures were erroneously posted as matching costs
      rather than to be paid with federal funds, it did not make an excessive
      drawdown of grant funds that earned interest but rather it received a
      legitimate grant reimbursement payment. Specifically, the City stated
      that it believes expenditures originally identified as matching costs
      should have been coded as federal grant expenditures for which
      reimbursement would be claimed, and as a result there was no
      excessive drawdown on which interest would have been earned.

      As noted previously, our report is based upon the accounting records
      and explanatory information provided to us during our review. Prior to
      our draft report, the City did not suggest that its accounting records
      contained a material error affecting our audit results, and all of the
      documentation we were provided indicated that those records were



                                    - 47 ­
correct. Further, we have not received documentation evidencing that
the expenditures were not drawn in advance.

The City’s response noted that if it is determined that its proposed
remedy for the excessive drawdown through the reposting of
expenditures as federally funded rather than matching costs is not
accepted, the amount of interest earned on the December 2010
drawdown was $18,054. The 2010 COPS Technology Program Grant
Owner’s Manual requires units of local government to remit interest
income earned in excess of $100 to the U.S. Department of Health and
Human Services.

The COPS Office concurred with our recommendation and stated that it
will work with the grantee to remedy our finding of funds to better use
from interest earned on the excessive advance drawdown of COPS
Office funds. This recommendation can be closed when the COPS
Office remedies the interest income in an appropriate manner.




                             - 48 ­
